Department of Homeland Security
   Ofﬁce of Inspector General

                               Recommended Practices for 

                               Office of Inspectors General 

                                    Use of New Media 





This report was prepared on behalf of Council of the Inspectors General on Integrity
and Efficiency




OIG-11-120                                                                             September 2011
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 25028




                                      Preface

At the request of the Council of the Inspectors General on Integrity and Efficiency
(CIGIE) Homeland Security Roundtable (HSR) and with the approval of the CIGIE
Executive Council, the Department of Homeland Security (DHS) Office of Inspector
General (OIG) chaired the New Media Working Group (Working Group), consisting of
public affairs specialists, attorneys, information technology (IT) professionals, and other
subject matter experts, to assess OIG use of new media.

This report describes current and prospective uses of new media tools in the OIG
community and suggests practices that OIGs may use as they consider implementing such
tools. It is based on questionnaire responses from Working Group members, survey
responses from 39 of the 79 CIGIE members polled, the subject matter expertise of new
media specialists, discussions with industry professionals, legal research, and a review of
applicable documents.

The recommendations herein have been developed based on the best information
available to the Working Group, and have been discussed in draft with the CIGIE HSR.
We trust that this report will guide OIGs as they consider the use of new media to further
the OIG mission. We express our appreciation to all who contributed to the preparation
of this report.




                                      Charles K. Edwards
                                      Acting Inspector General
Table of Contents/Abbreviations

Council of the Inspectors General on Integrity and Efficiency .......................................... 1


Executive Summary .............................................................................................................3


Background .........................................................................................................................5


What is New Media?............................................................................................................6


     Internal Tools .................................................................................................................6


     External Tools................................................................................................................7


Survey Results and Findings................................................................................................8


     How OIGs are Using New Media..................................................................................9


     New Media Tools Are Helping OIGs Both To Manage Information and
      Knowledge Internally and To Communicate Externally ..........................................11

     OIGs Are Concerned About Information Security, Privacy Issues, and
      Legal Oversight.........................................................................................................16


     New Media Efforts Call for Multidisciplinary Expertise ............................................19


     More Education on New Media Is Needed Within the OIG Community....................21


Conclusion, Proposed Areas for Further Study and Recommendation to CIGIE..............26


Appendices
     Appendix A:           Purpose, Scope, and Methodology.......................................................29

     Appendix B:           New Media Tools That Some OIGs Use .............................................30

     Appendix C:           New Media Information Security Primer ............................................35

     Appendix D:           Legal Resources ...................................................................................36

     Appendix E:           CIGIE New Media Working Group Survey ........................................43

     Appendix F:           Major Contributors to this Report........................................................50


Abbreviations
CIGIE                 Council of the Inspectors General on Integrity and Efficiency
CIO                   Chief Information Officer
CNCS                  Corporation for National and Community Service
DHS                   Department of Homeland Security
DOL                   Department of Labor
DOT                   Department of Transportation
Table of Contents/Abbreviations


ED      Department of Education
FCA     Farm Credit Administration
FISMA   Federal Information Security Act of 2002
FY      fiscal year
GAO     Government Accountability Office
GSA     General Services Administration
HSR     Homeland Security Roundtable
HHS     Department of Health and Human Services
IG      Inspector General
IT      information technology
NARA    National Archives and Records Administration
NASA    National Aeronautics and Space Administration
NLRB    National Labor Relations Board
NSF     National Science Foundation
OIG     Office of Inspector General
OMB     Office of Management and Budget
OPM     Office of Personnel Management
RRB     Railroad Retirement Board
SBA     Small Business Administration
TIGTA   Treasury Inspector General for Tax Administration
TOS     terms of service
TVA     Tennessee Valley Authority
USAID   U.S. Agency for International Development
USITC   United States International Trade Commission
USPS    United States Postal Service
VA      Department of Veterans Affairs
The CIGIE was statutorily established as an independent entity within the
executive branch by the Inspector General Reform Act of 2008, Public Law 110-
409. The mission of the CIGIE is to—

       Address integrity, economy, and effectiveness issues that transcend
       individual government agencies; and

       Increase the professionalism and effectiveness of personnel by developing
       policies, standards, and approaches to aid in the establishment of a well-
       trained and highly skilled workforce in the federal OIG community.

Membership

       All IGs whose offices are established under either section 2 or section 8G
       of the Inspector General Act, or pursuant to other statutory authority (e.g.,
       the Special IGs for Iraq Reconstruction, Afghanistan Reconstruction, and
       Troubled Asset Relief Program)

       The IGs of the Office of the Director of National Intelligence (or at the
       time of appointment, the IG of the Intelligence Community) and the
       Central Intelligence Agency

       The IGs of the Government Printing Office, the Library of Congress, the
       Capitol Police, the Government Accountability Office, and the Architect
       of the Capitol

       The Controller of the Office of Federal Financial Management

       A senior-level official of the Federal Bureau of Investigation, designated
       by the Director of the Federal Bureau of Investigation

       The Director of the Office of Government Ethics

       The Special Counsel of the Office of Special Counsel

       The Deputy Director of the Office of Personnel Management

       The Deputy Director for Management of the Office of Management and
       Budget (OMB)

   Recommended Practices for Office of Inspectors General Use of New Media


                                   Page 1

CIGIE HSR

Since September 11, 2001, protecting our Nation has been a paramount concern
of the entire federal establishment. The OIG community plays a significant role
in reviewing the performance of agency programs and operations that affect
homeland security. To a large extent, this has been accomplished through
collaborative efforts among multiple OIGs.

On June 7, 2005, the President’s Council on Integrity and Efficiency Vice-Chair
established a President’s Council on Integrity and Efficiency HSR. The
roundtable supports the OIG community by sharing information, identifying best
practices, and participating on an ad hoc basis with various external organizations
and government entities. The CIGIE New Media Working Group was formed
under the auspices of the HSR.




   Recommended Practices for Office of Inspectors General Use of New Media


                                   Page 2

OIG

Department of Homeland Security
Office of Inspector General


Executive Summary
                 This report presents a snapshot of where Offices of Inspector General
                 stand today regarding the use of new media. It also is an attempt to
                 sensitize the Office of Inspector General community to the ways in which
                 new media tools may help an Office of Inspector General achieve its
                 mission and why an Office of Inspector General needs to be aware of new
                 media developments. Just as the government’s adoption of other
                 technologies, such as email and websites, required adaptation, new
                 media’s popularity is causing even reluctant government agencies to
                 reconsider their options. Some Offices of Inspector General hesitate,
                 however, because they are concerned about such issues as information
                 security, privacy, and legal oversight. Yet Offices of Inspector General
                 should consider the Open Government Directive issued by the White
                 House on December 8, 2009, which states—

                      Emerging technologies open new forms of communication between a
                      government and the people. It is important that policies evolve to
                      realize the potential of technology for open government.

                 With that thought, the Council of the Inspectors General on Integrity and
                 Efficiency New Media Working Group presents and analyzes issues
                 involving emerging technologies that Offices of Inspector General can
                 implement to carry out the President’s initiative.

                 Offices of Inspector General can use external new media tools to
                 disseminate information to host agency staff, Congress, the public, and
                 other stakeholders, as well as to allow various users to interact. Examples
                 of external new media tools include Twitter, Facebook, blogs, and
                 podcasts. In addition, new media can be used internally to communicate
                 and to manage information and knowledge, such as through a
                 collaboration space or wiki. Examples of internal new media tools include
                 SharePoint, SurveyMonkey, and OMB Max. Results from a survey that
                 the Working Group sent to 79 CIGIE members indicate that about two
                 dozen use new media both for internal and external purposes.

                 Of the 39 Offices of Inspector General responding to the survey, two-
                 thirds reported that they currently use at least one type of new media,
                 while most of the remaining third said they have plans to implement new


             Recommended Practices for Office of Inspectors General Use of New Media


                                             Page 3

OIG

Department of Homeland Security
Office of Inspector General
                 media or are in the process of doing so. The most common new media
                 tools they are using are SharePoint, Twitter, OMB Max, RSS feeds, and
                 Facebook. Survey responses show that use of new media has effected
                 positive changes. Internally, new media improved communication,
                 information sharing, and collaboration among staff. Externally, new
                 media helped to increase awareness of the office missions, arouse interest
                 in reports and investigations, and drive traffic to websites. Survey results
                 showed that—:

                          New media tools are helping Offices of Inspector General both to 

                          manage information and knowledge internally and to communicate 

                          externally.

                          Offices of Inspector General are concerned about information 

                          security, privacy issues, and legal oversight.

                          New media efforts call for multidisciplinary expertise.

                          More education is needed within the Office of Inspector General 

                          community. 


                 The report includes six recommendations to Offices of Inspector General
                 and one recommendation to the Council of the Inspectors General on
                 Integrity and Efficiency. The report also includes appendices on legal
                 resources, information security, and tools that certain Offices of Inspector
                 General are using. These appendices are designed to raise awareness of
                 the many issues that Offices of Inspector General should consider and to
                 enable them to reach out to others with more experience.




             Recommended Practices for Office of Inspectors General Use of New Media


                                             Page 4

Background
             In fall 2010, the CIGIE HSR asked the IG of the DHS to lead a
             working group to explore new media use among OIGs. CIGIE was
             aware that many agencies that OIGs oversee either employ new
             media tools or are planning to do so. CIGIE also recognized that
             OIG personnel may not be familiar with new media tools or how
             the government uses them. Therefore, CIGIE sought to create a
             forum for OIGs to discuss how they can use new media, as well as
             how they can better oversee their agencies’ use of new media. The
             CIGIE Working Group charter called for members to explore how
             OIGs could use new media to serve the OIG mission, research
             legal and information security issues, and discuss recommended
             practices.

             The Working Group began meeting regularly in December 2010.
             At the outset, subgroups for legal and information security issues
             began to research their respective issues. Soon thereafter, the
             Working Group sent a questionnaire to its members to learn about
             their new media use. After reviewing responses, the Working
             Group formulated and administered a survey of OIG new media
             use among 79 CIGIE members. Final responses from 39 OIGs,
             two-thirds of which identified themselves as new media users,
             were received in July 2011. The Working Group reviewed the
             survey results and identified some recommended practices. This
             report makes six recommendations to OIGs and one
             recommendation to CIGIE regarding OIG new media use.




                 Recommended Practices for OIG New Media


                                 Page 5

What Is New Media?
    When people think of ―new media,‖ they typically think of such social media
    platforms as Twitter and Facebook, which reported more than 750 million
    followers in 2011. But ―new media‖ is in fact much broader and encompasses all
    forms of electronic, digitalized, and interactive media, including tools that allow
    interactive communication with an external audience and those used solely
    internally. New media technically also includes email, but email is not covered in
    this review because it is already in common use. ―External‖ new media, such as
    Twitter or Facebook, allows interaction with a public audience, whereas
    SharePoint and OMB’s MAX platform are examples of ―internal‖ new media,
    which facilitates knowledge management, collaboration, and internal
    communication.

    New media has become firmly established in our society, including the private
    sector workplace and the government. Through new media, the government can
    engage the public through diverse means and on a scale never achieved before.
    New media tools are available to anyone with Internet access, anywhere in the
    world, at any time of day. New media enables the government to provide
    improved service to its citizens with prompter responses, greater attention to
    individual concerns, and overall better customer service. President Obama
    recognized new media’s increasing role within government when he issued his
    January 2009 Memorandum on Transparency and Open Government, which
    encouraged agencies to ―harness new technologies to put information about their
    operations and decisions online and readily available to the public.‖ In response,
    many government agencies began to explore and embrace new media tools. But
    with more involvement comes a need for increased responsibility, accountability,
    and diligence. Inadvertent misuse of these tools can create significant
    vulnerabilities and other problems for an OIG.

    Some examples of new media tools are the listed below. For a list of some OIGs
    that use the tools, see appendix B.

    Internal Tools


                    MAX     OMB Max: A federal government ―private cloud‖ that
           allows government employees, government ID-holding contractors, and
           sponsored contractors to manage and share information and collaborate on
           interagency projects.

                  SharePoint: Microsoft software that allows internal Web portals
           (intranets) for document sharing and search, team collaboration, blogs, and
           wikis.


           Recommended Practices for Office of Inspectors General Use of New Media


                                           Page 6

            Survey tools such as SurveyMonkey: Online survey tools that
     enable users to create their own Web-based surveys.

             WebEx: A Web conferencing tool that combines desktop sharing
     through a Web browser with phone and video conferencing capabilities,
     facilitating on-demand collaboration, online meeting, Web conferencing,
     and video conferencing applications.

           Wiki: A type of collaborative workspace on the Web that allows
     users to contribute or edit content. The best known public example is
     Wikipedia, but federal agencies can also use the technology.

External Tools

               Audio or video podcasts: MP3 audio or video files that may be
     downloaded from the Internet onto computers or portable listening
     devices, such as iPods or other MP3 players. Users can listen to or watch
     podcasts at their convenience.

            Blog: A website where bloggers write entries in a diary-like format.
           GovDelivery: A ―Software as a Service‖ tool that allows an agency
     to share information with citizens via emails, text messaging, RSS feeds
     (see below), and social media.

           Facebook: A social networking website that allows users to create
     a profile and connect with others by ―friending‖ them. The site allows
     users to post and respond to comments.

           IdeaScale: A crowd-sourcing platform that allows users to submit
     ideas, discuss and refine others’ ideas, and rank ideas by preference.

           LinkedIn: A business-oriented, professional networking site that
     allows members to create a professional profile and connect with others.

           RSS feed: An abbreviation for Really Simple Syndication, RSS is
     a way of formatting information so that it is easily read by computers,
     enabling quick distribution of information to subscribers of a particular
     website.

            Twitter: A microblogging service that allow users to write up to
     140-character posts called ―tweets,‖ to follow other users who tweet, and
     to ―retweet‖ those they follow.

     Recommended Practices for Office of Inspectors General Use of New Media


                                     Page 7

                  YouTube: A video-sharing website on which users can upload,
           share, and view videos.

Survey Results and Findings
    Survey questions sought input on areas such as the reasons why OIGs are using
    new media, the tools they are using or considering, overall experiences, resources
    expended, oversight issues, obstacles, metrics, and legal and information security
    requirements. Results revealed the following:

       New media tools are helping OIGs both to manage information and
       knowledge internally and to communicate externally.
       OIGs are concerned about information security, privacy issues, and legal
       oversight.
       New media efforts call for multidisciplinary expertise.

       More education is needed within the OIG community.


    The complete survey questions are presented in appendix E.




           Recommended Practices for Office of Inspectors General Use of New Media


                                           Page 8

        How OIGs Are Using New Media
        Survey results showed that OIGs are using new media for many purposes,
        including the following:

        Required Reporting. OIGs use new                   The United States Postal Service (USPS)
                                                           OIG was one of the first OIGs to embrace
        media to fulfill and supplement                    social media. Since 2008, it has managed
        traditional reporting methods for reports          its Pushing the Envelope blog, a Facebook
        and publications, including semiannual             page, and Twitter account. Its Audit
        reports, top management challenges,                Projects page lists all ongoing audits and
        and audit and work plans.                          allows the public to comment online. But
                                                           the agency is not focusing solely on social
                                                           media. This OIG‘s Five-Year Strategic
        Notifying Congress of OIG Work.                    Plan, fiscal year (FY) 2011–FY 2012,
        OIGs are using new media to                        makes it clear that in the next five years, it
        communicate with Congress. As the                  will leverage new media to find even more
        Congressional Research Service                     significant ways to provide value. This
                                                           includes using new technology to improve
        recently pointed out, many members of              its investigations and audits, and
        Congress now use email, blogs,                     continuing to use technology to collect
        YouTube channels, Twitter, and                     and analyze information. USPS OIG will
        Facebook to communicate with their                 also develop data-mining models to
        constituents.1 Members and their staff             identify investigative and audit leads.
                                                           Finally, it will use social media tools to
        are attuned to social media and expect             establish ―a more interactive professional
        to find information about OIGs there,              collaborative environment.‖
        too. New media notifications can link
        directly to the OIG website, where reports can be viewed and downloaded along
        with other information and resources.

        Resource for Citizens, Policymakers, and Journalists. OIGs use new media to
        drive traffic to their websites and communicate with citizens, policymakers, and
        journalists. Although an OIG’s website is publicly available, social media
        capabilities can increase interest and participation. For example, podcasts
        featured on OIG websites can make the work of OIGs more accessible and user-
        friendly. Such use of new media tools ―support[s] the fundamental democratic
        role of spreading information about public policy and government operations.‖2

        Internal Communication and Collaboration. OIGs use new media tools to
        collaborate internally, reduce redundancy, facilitate training, and manage
        information. For example, OIGs use SharePoint, which allows dispersed teams to
        collaborate on publications and reports. OIGs also use other tools such as WebEx
        to facilitate meetings, OMB Max to collaborate on a government cloud, and
        SurveyMonkey to solicit ideas and input from employees.



1
  Social Networking and Constituent Communications: Member Use of Twitter During a Two-Month

Period in the 111th Congress, February 3, 2010.

2
  Id., p. 1.

                Recommended Practices for Office of Inspectors General Use of New Media


                                                Page 9

         Investigative Tool. Investigators use social media to locate evidence of crimes,
         obtain criminal intelligence, gain background information on suspects and
         victims, generate leads, find assets, and deter crime and wrongdoing.

         Data Gathering. Auditors, inspectors, and evaluators use social media to gather
         information for their work. For example, they pull information from Facebook or
         LinkedIn to learn about an individual or business. They also can use new media
         to determine whether the agency under review is leveraging new technologies to
         disseminate government information, and whether the agency has in place proper
         controls, appropriate guidance, and effective performance indicators. They can
         check whether the agency incorporates social media as part of a crisis
         communications or response plan. Furthermore, they can develop increasingly
         complex data mining models to identify leads with a high potential for identifying
         fraud and potential monetary savings. See figure 1 for the reasons OIGs are using
         new media.




     0            2            4            6               8         10           12           14
                         Figure 1: Reasons Why OIGs Are Using New Media




                      NARA OIG Uses Facebook for Investigative Outreach

The National Archives and Records Administration (NARA) OIG uses Facebook to help recover missing
  documents and other artifacts. Since its creation in May 2010, the NARA OIG‘s Facebook page has
                               attracted more than 1,500 Facebook friends.
The page is hosted by NARA OIG‘s Archival Recovery Team, which investigates allegations of stolen or
missing federal historical documents. Getting the site operational took several weeks, but maintaining it 

            takes only a few hours each week to post new content and respond to comments.

 To date, postings have resulted in six solid investigative leads. Inspector General Paul Brachfield said,

―We enlist the American public to be our ‗sentinels‘ in helping us to locate records or artifacts that have
 been alienated from our holdings and by extension other institutions. Social media serves as a clarion
        that allows us to spread our message and receive the support of a wide array of people.‖




                 Recommended Practices for Office of Inspectors General Use of New Media


                                                 Page 10

New Media Tools Are Helping OIGs Both To Manage
Information and Knowledge Internally and To Communicate
Externally
New media tools such as SharePoint, OMB Max, and SurveyMonkey are helping
OIGs manage information and knowledge internally:

   OMB Max. OIGs are using OMB Max to communicate with the Office of
   Management and Budget (OMB), comply with Federal Information Security
   Act of 2002 (FISMA) reporting, gather and disseminate information internally,
   and meet the standards of the Open Government Initiative, which involves
   increasing transparency, participation, and collaboration within the federal
   government and with the public.

   SharePoint. SharePoint is the most popular new media tool among OIGs. It
   is also the internal media tool that most OIGs are considering. OIGs use it to
   gather, store, and share information on an intranet; promote internal
   collaboration; and, in at least one case, encourage staff to use email less.

   SurveyMonkey. OIGs are using SurveyMonkey to collect data and to
   facilitate communication. They use it to administer employee surveys, solicit
   ideas, and gather feedback on proposed strategies and policies, and also use it
   externally to gather stakeholder feedback on published evaluation reports.
   One OIG praised SurveyMonkey for being easy, anonymous, and attractive to
   survey respondents. The Working Group used SurveyMonkey to conduct its
   survey.

External new media tools, such as podcasts, RSS feeds, Twitter, and Facebook,
are helping OIGs communicate with an external audience. To cite some
examples:

   Podcasts. OIGs find podcasting to be a simple, inexpensive, quick way to
   deliver news and information, such as short interviews with senior staff to
   highlight important work, reports, congressional hearings, and training. One
   survey respondent commented that the Government Accountability Office
   (GAO) podcasts inspired that OIG to do something similar.

   RSS Feeds. OIGs using RSS feeds to
                                                   A few congressional staff members
   disseminate information have seen               expressed surprise that we weren‘t on
   increased traffic to their websites and         Twitter, and our involvement on
   received positive feedback from                 CIGIE‘s New Media Working Group
   stakeholders.                                   also led us to revise our position on
                                                   Twitter.
   Twitter and Facebook. Nine OIGs
   are using Twitter, and three are using          —OIG survey respondent
   Facebook. These are also the most
      Recommended Practices for Office of Inspectors General Use of New Media


                                      Page 11

             popular tools that OIGs are considering. Such tools allow the OIG to
             disseminate information and reports to more targeted audience, including
             congressional staffers. See figure 2 for the new media tools that OIGs are
             using and figure 3 for the new media tools that OIGs are considering.


    The National Aeronautics and Space Administration (NASA) OIG joined Twitter and Facebook in
   August 2010 as part of its continuing effort to make OIG products available in a timely manner to a
  wider audience using a variety of media. NASA OIG uses Twitter and Facebook to update Congress,
  NASA employees, the media, the public, and the OIG community about the release of OIG reports and
 other items of interest, such as new projects, letters to Congress, press releases, and semiannual reports.
    Since launching these services just over a year ago, the OIG has gained approximately 200 Twitter
followers and more than 860 Facebook ―fans.‖ More than half of the OIG‘s postings on Facebook have
more than 1,000 impressions. Within the same period, the OIG‘s website has been visited approximately
     275,000 times, with visitors downloading information from the site more than 2.8 million times.

   NASA OIG also posts on its website brief video overviews of important work products, such as the
  agency‘s top management challenges, special investigative reviews, and audit reports. These efforts
have increased its visibility and provided new vehicles to disseminate timely information on its activities.




                           Figure 2: New Media Tools That OIGs Are Using




                 Recommended Practices for Office of Inspectors General Use of New Media

                                                  Page 12
                  Tools that OIGs are Considering
                          (Based on 39 Respondents)



   20

   15

   10

    5

    0




              Figure 3: New Media Tools That OIGs Are Considering

OIGs agree that new media can serve the OIG mission in numerous ways. Two-
thirds of respondents indicated three or more ways they would like to see their
offices use new media (see figure 4). Three-quarters of the respondents would
like to see their offices use new media to increase awareness of the OIG. Most
also view new media as a way to increase the efficiency and effectiveness of OIG
personnel, enhance communication among OIG employees, help recruiting
efforts, and facilitate obtaining comments and feedback that may increase the
OIG’s ability to provide effective oversight. OIGs agree that, when used
effectively, new media can help the OIG by—

   Providing easy access to reports and projects; 

   Educating the public about the OIG and its mission; 

   Shaping the perception of the OIG and its work; 

   Educating agency employees about fraud, waste, abuse, and mismanagement 

   in the agency;
   Directing agency employees and the public to the OIG Hotline; and
   Increasing transparency within the agency.




        Recommended Practices for Office of Inspectors General Use of New Media


                                        Page 13

             Figure 4: How New Media Can Serve the OIG Mission

OIGs using new media report that it has                 The Health and Human Services (HHS)
improved collaboration efforts and                      OIG recently launched a Most Wanted
transparency within OIG offices, as well as             Fugitives page on its website that allows
communication and information sharing both              users to click to report a fugitive. Since
                                                        coming online in February 2011, this
internally and with other agencies. They                website has generated more than 185,000
indicated that new media has increased                  visitors, been featured in three
awareness of the OIG mission, increased                 congressional testimonies, and been the
interest in OIG audits and investigations, and          subject of hundreds of news stories.
driven traffic to OIG websites.

Nevertheless, few OIGs have effective metrics in place. Among those that do,
some measure work improvements, such as increased collaboration, reduced
redundancy in the office, and dollars saved. OIGs using social media tools
measure number of postings or retweets and the number of fans, users, or
followers (see figure 5).

OIGs need effective metrics to make appropriate business decisions that consider
individual mission needs. Metrics that account for specific new media tools will
help OIGs determine the value that new media adds. Such metrics may justify the
investment costs, risks, and benefits for certain new media tools and activities, but
not necessarily for all. More research and collaboration are needed in this area.




       Recommended Practices for Office of Inspectors General Use of New Media


                                       Page 14

                      Figure 5: OIG Metrics for New Media


Takeaway

New media can serve the OIG mission in         We track the dollars saved by
multiple ways, including managing              using WebEx to conduct meetings.
information and knowledge internally,          WebEx savings so far have totaled
communicating externally, raising              over $85,000 and 315 staff days in
awareness of OIG work, increasing the          the first half of FY 2011.
efficiency and effectiveness of OIG
                                               —OIG survey respondent
personnel, and meeting other mission
needs. Although OIGs using new media
report positive outcomes, few have the metrics needed to help them make
appropriate business decisions.

Recommended Practices
We recommend that OIGs using or planning to use new media consider the
following practices:

Recommendation #1: Before implementing new media, OIGs should consider
how it can serve their particular mission. Factors such as office size, resources, and
the programs and operations the OIG oversees will play a role in determining
which tools an OIG may want to explore. OIGs interested in implementing new
media should consider what other offices have found successful (see appendix B).

Recommendation #2: OIGs should develop effective metrics for new media to
help assess the balance of costs, risks, and benefits.




       Recommended Practices for Office of Inspectors General Use of New Media


                                       Page 15

        OIGs Are Concerned About Information Security, Privacy Issues,
        and Legal Oversight
        Despite the many ways that new media can serve the OIG mission and the
        positive experiences that OIGs report, new media presents critical issues that
        OIGs must confront. Among the concerns
        that survey respondents reported, issues
                                                       A number of organizational
        involving information security, privacy,       constraints (technology, legal,
        and legal oversight are the most critical.     workforce, and FISMA) must be
        A recent GAO audit of federal agency use resolved before we can commit to
        of commercial social media providers           more intense use of new media.
        stated that ―social media technologies
        present unique challenges and risks, and       —OIG survey respondent
        without establishing guidance and
        assessing risks specific to social media,
        agencies cannot be assured that they are adequately meeting their responsibilities
        to manage and preserve federal records, protect the privacy of personal
        information, and secure federal systems and information against threats.‖3 The
        Working Group discussed these issues at length, but decided that, due to their
        serious nature, each merited a detailed, individual analysis in follow-up reports.
        Our main takeaway is that while OIG concerns about information security,
        privacy, and legal oversight are appropriate and reasonable, they can be managed
        with the right approach.

        Information Security
         One of the most critical concerns expressed by OIGs involves information
         security. OIGs fear that if they embrace certain new media tools, they will expose
                                           their systems to viruses and malware or to
Our Office of Investigations is            another severe threat. Indeed, their worries may
concerned about the increased risk of      be valid; data housed on third-party servers may
negative exposure due to the lack of       not receive the protections or assurance of
protection from viruses and malware,       certified and accredited government networks,
as well as the lack of control of reverse  systems, or personnel. As federal data is stored,
postings to agency message boards.         processed, and transmitted through unknown and
—OIG survey respondent                     often insecure environments, OIGs may expose
                                           themselves to a host of new security, control, and
         privacy concerns. That said, new media may not present any greater threat to
         federal data or systems than outside email. Nonetheless, some OIGs choose to
         block access to certain social media sites or reject certain new media tools.




3
 Federal Agencies Need Policies and Procedures for Managing and Protecting Information They Access
and Disseminate (GAO-11-605), June 2011, highlights summary. This audit report made social media
privacy, security, and records retention recommendations to 21 of 23 agencies.
                Recommended Practices for Office of Inspectors General Use of New Media


                                                Page 16

But blocking new media websites is not the easy answer it appears to be.
Selective blocking does not eliminate information security threats. The Internet
presents unlimited threats, and an OIG cannot realistically block access to all
potentially risky sites. Furthermore, with an increasing number of government
agencies using new media, at some point an OIG likely will need to review an
agency’s information security systems. Similarly,
with more crimes involving computers and more            Our organization is relatively
evidence being found online, investigators will need small, and the increase in
access to and training on new media tools. As            responsibility for creating,
increasing numbers of law enforcement agencies           updating, and monitoring new
and auditors rely on new media to gather                 media, in addition to related
information, an auditor, investigator, or inspector      records management, may
with little or no experience with new media may be       adversely affect our already
handicapped. Blocking access is an easy short-term limited resources.
solution that might diminish investigative and
auditing capabilities in the long term. For a brief      —OIG survey respondent
information security primer, see appendix C.

Privacy Issues
Although new media privacy issues may not be the foremost concern to OIGs,
they present several potentially serious pitfalls. First, when the government
collects personal information from the public, it is required to disclose what kinds
of personal information it requires, what it will do with the information, and what
purpose the information collection will serve. Collection of personal information
via new media is no exception. OIGs need to know what constitutes a collection
with respect to new media, what information constitutes personally identifiable
information, and when a Privacy Impact Assessment is necessary. Second, new
media presents another potential outlet for a privacy breach. OIGs need to ensure
that proper privacy controls are in place before, during, and after implementing
new media. Such controls may include advising employees through policy and
training that disclosure restrictions apply equally to information shared in
conversations and on email as to information posted to their personal Facebook
accounts or tweeted on Twitter. Finally, OIGs need to ensure that they negotiate
terms of service (TOS) agreements with new and social media providers to
account for government privacy laws and regulations. Among other things, the
TOS agreement should allow the OIG to post its own privacy notice on certain
third-party sites. OMB has issued several memoranda on new media privacy
issues. See appendix D for a list of legal resources, including these memoranda.

Legal Oversight
OIGs are concerned that legal requirements will overwhelm them as they juggle
many issues that may be unfamiliar. Although the General Services
Administration (GSA) negotiated TOS agreements with such free social media
providers as Facebook, IdeaScale, and YouTube, such agreements are neither

       Recommended Practices for Office of Inspectors General Use of New Media


                                       Page 17

one-size-fits-all nor comprehensive. GSA TOS agreements cover the basics, such
as amending certain clauses to account for basic federal government requirements
and restrictions on such issues as privacy policies, cookies, and jurisdiction; they
may not, however, adequately protect every agency’s interests. Agency counsel
and procurement personnel need to evaluate TOS agreements themselves in light
of their particular needs and planned applications. In addition, an OIG needs to
know how ethics laws and regulations apply to employee personal use—during
both duty hours and personal time—as well as to employees representing the
agency. An OIG also needs to know how to make social media services
accessible to the disabled and avoid triggering the Federal Advisory Committee
Act. Finally, an OIG needs to know how intellectual property law applies to new
media. These are only some of the issues that an OIG counsel must address
before an office adopts new media.

Concerns About Resources
OIGs question whether investing in new media justifies the resources required.
Senior leadership from a number of OIGs, especially the smaller offices, may feel
that they lack the funding or staff to create and maintain a robust new media
program. Therefore, they are particularly concerned with the benefit-to-cost ratio.
New media places demands on OIGs, but the potential costs and risks of not
exploring new media may outweigh the cost of required resources. Not
understanding and using new media could raise long-term costs, resulting not only
in reduced efficiency, but also in less effective oversight. We do not suggest that
every OIG adopt an equally robust new media plan. Rather, we suggest that each
OIG considering new media conduct its own benefit-to-cost analysis based on its
resources and mission needs.




         Figure 6: Resources That OIGs Have Expended on New Media




       Recommended Practices for Office of Inspectors General Use of New Media


                                       Page 18

New media does not need to be expensive. Some OIGs report that they do not
expend any extra resources. Rather, they use existing resources and free new
media tools. Other OIGs, however, spend thousands of dollars on salaries for new
media specialists, procurement of expensive technology, and other costs. The
most commonly expended resource to develop and manage new media is staff
time (see figure 6).

Takeaway
Issues involving information security, privacy, and legal oversight merit serious
attention at the outset of any new media efforts. Despite the risks, these issues
can be managed successfully with proper planning and the right approach. Lack
of resources also prevents some OIGs from implementing new media, but use of
the tools need not be expensive. By working together and sharing information,
such as on joint efforts like this CIGIE report, the OIG community may ease
individual resource constraints, helping smaller OIGs in particular.

Recommended Practice
We recommend that OIGs using or planning to use new media consider the
following practices:

Recommendation #3: OIGs should be aware of a multitude of legal and
information security issues when employing new media. Before using any new
media tool, they should seek input from counsel and information technology (IT)
experts, both of whom should continue to be involved throughout implementation.
OIGs should consider how new media is being used by both external audiences
and employees, since substantial information security investments and policy
creation may be necessary to mitigate risks.

Recommendation #4: OIGs should thoroughly assess the potential benefits,
costs, and risks in determining whether to use certain new media tools.

New Media Efforts Call for Multidisciplinary Expertise
New media efforts require expertise from many disciplines. Although one person
may be responsible for creating or managing content on a public-facing,
interactive new media platform, IT personnel, counsel, management, the
appropriate program office, and experts in privacy, ethics, procurement, public
affairs, and information security should all have input into that content. Experts
from just one or two of these areas are unlikely to spot all the issues. New media
is a vast field witnessing rapid developments, and responsibility for keeping
abreast of changes should be shared.




       Recommended Practices for Office of Inspectors General Use of New Media


                                       Page 19

Several OIGs have created internal working groups or committees to address new
media from the planning to implementation stages (see figure 7).




                     Figure 7: New Media Planning

For example, one survey respondent wrote:

       We established a Web Governance Council, led by the Director of Public
       Affairs and comprised of representatives from program offices, Executive
       Office, Counsel, IT, Legislative Affairs, and Management. The purpose
       of the Council is to serve as a forum for the program offices to provide
       input on the Web content relating to their work and to suggest ways in
       which the public affairs office could better highlight that work to the
       OIG's target audiences.

Sixteen respondents reported that the responsibility for developing and managing
the content of the OIG’s new media sites was shared across divisions, but not all
OIGs involve counsel or IT. Four OIGs reported that program offices alone were
responsible for developing and managing content. Failing to involve
multidisciplinary expertise exposes an OIG to unnecessary risks.

Takeaway
New media issues transcend offices, professions, and expertise. For this reason,
the Working Group included OIG representatives from IT, counsel, public affairs,
congressional affairs, management, and inspections. While an OIG should
involve counsel and IT to ensure that legal and information security issues are
considered, other expertise also is needed. The Working Group found that
representatives from different professions brought critical knowledge to the table.
OIGs involving personnel with a range of expertise are more likely to implement
new media successfully while providing reasonable assurance of information
security and legal and privacy protections.

Recommended Practice
We recommend that OIGs using or planning to use new media consider the
following practice:

       Recommended Practices for Office of Inspectors General Use of New Media


                                       Page 20

Recommendation #5: OIGs interested in using new media should consider
involving multiple offices in the effort. The Working Group does not believe that
a formal council is necessary, but it does suggest that agencies involve experts
from the following critical areas:

   IT systems/IT security
   Counsel
   Contracting and procurement
   Ethics
   Privacy
   Public affairs
   Congressional affairs
   Program offices
   Management

More Education on New Media Is Needed Within the OIG
Community
Survey responses and Working Group discussions revealed a need for more
education in new media. First, nearly half of the survey respondents felt that lack
of knowledge prevented them from implementing new media to the extent that
they wished (see figure 8).




      Figure 8: Issues That Prevent OIGs From Implementing New Media

While this report aims to inform and sensitize the OIG community, it is only an
initial assessment and can provide neither the comprehensive guidance that OIGs
need nor the detailed recommendations that address the specific needs of
individual offices. Our survey found that, among other things, OIGs are unclear
as to the information security and legal requirements surrounding new media. For
example, they are not sure whether or how FISMA applies to new media, or
which new media records they are responsible for maintaining. Also, as everyone
is aware, new media is dynamic. Established sites such as Facebook introduce

       Recommended Practices for Office of Inspectors General Use of New Media


                                       Page 21

new tools and settings on what seems to be
a weekly basis, and new tools such as geo-           The Department of State OIG
tagging are unveiled one after the other.            completed its review of its new
                                                     media activities in February
The new media landscape in a year may
                                                     2011. The report is available
look entirely different from that of today, so       at oig.state.gov/documents/
continuing education will be essential. The          organization/157926.pdf.
points below illustrate the need for more
work in this area.

Lack of Oversight
Whether inspired by the Open Government Initiative or acting independently,
more and more government agencies are using new media. In response, OIGs
will need to address the increasing demand for new media interaction with the
agencies they oversee, Congress, and the public.

Most OIGs, however, have not reviewed the new media activities of their
agencies, and only a few have plans to do so (see figure 9). This is problematic.
First, agencies are operating in an environment in which there is practically no
oversight. Given the many serious issues that a government agency must
consider, missteps are easy and the consequences are grave. Informed oversight
by OIGs is necessary now, and as agencies increase their use of new media, the
need will only become greater. Second, OIGs are mandated to review agency
programs and operations, but OIGs still appear to lack basic knowledge about
new media, severely hampering their oversight efforts. An agency may question
an OIG’s ability to oversee its new media activities if OIG auditors, investigators,
or inspectors themselves are not well versed in new media. In short, OIGs need to
be informed about new media issues to monitor agency activities and perform
their oversight mission. Continuing education will be essential.




                Figure 9: Review of Agency New Media Activities




       Recommended Practices for Office of Inspectors General Use of New Media


                                       Page 22

                                               FISMA Compliance

At its core, new media is about two-
way, or interactive, communication.            OIGs do not agree on whether their new media
Much of the IG community
                                               activities must comply with FISMA. Among
traditionally has steered away from
engaging the public, except in support         other things, FISMA requires that agencies
of its law enforcement mission of              conduct periodic risk assessments4 and establish
preventing and deterring wrongdoing.           appropriate information protection policies based
We are very interested in hearing the          on the harm resulting from unauthorized access,
experiences of other OIGs that engage          use, disclosure, disruption, modification, or
in two-way communication using new             destruction of (1) information collected or
media.                                         maintained by or on behalf of the agency and (2)
                                               information systems used or operated by an
—OIG survey respondent                         agency or by a contractor of an agency or other
                                               organization on behalf of an agency.5

                                           Some respondents reported that they do not
          consider new media tools to be ―major information systems‖ that require FISMA
          compliance. Others said that they had not conducted a FISMA review because
          they were not collecting information from individuals, which would require
          FISMA compliance. Rather, they were simply using new media to share
          outbound information, such as posting links to OIG reports, and to repost
          information that was already public. Some respondents indicated that they
          thought that FISMA did not apply to specific tools like Twitter or SurveyMonkey,
          or stated that they were unsure. Regardless of whether OIGs are unsure about
          FISMA requirements, information security must be considered with all forms of
          new media. More research and education is essential in this area.

          Records Management
          To the extent that the use of new media results in the creation of federal records,
          agencies are responsible for the proper preservation and disposition of those
          records. Not only may the content of new media be a federal record, but the
          metadata associated with such content may constitute a federal record as well.
          Content records include entries, comments, blogs, posts, links, and videos.
          Repostings of news, information, or other public affairs communications items
          that are preserved as records elsewhere are not typically considered to be federal
          record material. Metadata records include information about the content, such as
          the creator and recipient of the content, date and time of the creation, and receipt
          of the content.




4
    FISMA § 3544(b).
5
    FISMA § 3544.
                 Recommended Practices for Office of Inspectors General Use of New Media


                                                 Page 23

        Our survey found that most OIGs do not have specific records management
        policies and practices for new media, and consequently do not maintain records of
        content involving new media. Only one-third of the respondents reported that
        their recordkeeping policies accounted for new media. Some, however,
        commented that while their OIG policies were not specific to new media, any new
        media records fell under their general recordkeeping policies. Some respondents
        that do not maintain records believe that it is not required because they do not
        post to external sites. Rather, the content is linked to work products hosted on
        internal websites or is a copy of records already maintained under applicable
        records schedules. Because there is considerable confusion about how records
        management requirements apply to new media, there is a need for more research
        and education among OIGs, and perhaps an updating of the regulations to provide
        greater clarity.

        Takeaway
         OIGs are uncertain about new media requirements regarding information security,
         FISMA, and records management. Respondents also reported that lack of
         knowledge prevents them from implementing new media. As a result, the
         Working Group’s most important takeaway for OIGs is that more education is
         needed. New media has the potential to enhance OIG operations, from the
         program offices to top management, but OIGs need to learn how to comply with
         information security, privacy, and other legal requirements. Without the
                                         necessary knowledge, OIGs may opt to avoid
                                         using new media. That choice could negatively
The Office of the Inspector General at
the Smithsonian Institution is currently affect the oversight mission and prevent OIGs
conducting an audit of the use of social from being as effective as they could be. Lack of
media at the Smithsonian. Our            oversight could lead to a grave agency misstep,
objectives are to assess whether the     which an IG may be compelled to raise with
Institution‘s plans for and current uses Congress. In addition, lack of knowledge may
of social media productively and
responsibly advance the Smithsonian      result in OIGs using new media inappropriately,
mission to increase and diffuse          agreeing to a contract that does not protect the
knowledge, including whether the         OIG’s interests, or even violating a law or
Institution provides adequate oversight  regulation.
and sufficient accountability. We
initiated the audit to address the risk
posed by users posting inappropriate        The Working Group learned firsthand how
content on Smithsonian accounts. We         important education is to understanding new
also undertook the audit because the        media’s potential for rewards and risks. Members’
Smithsonian‘s Strategic Plan                experiences with new media varied at the
emphasized the importance of these          beginning of our discussions. Several brought
tools in advancing the Institution‘s
mission, and we were concerned that         specialized experience in new media, while others
the Smithsonian ensure adequate             were not familiar with such common tools as
oversight of and accountability for         Facebook or SharePoint. In the end, however, all
social media use. We expect to issue a      members learned a great deal about individual new
final report not later than September       media tools, current and prospective OIG use of
30, 2011.
                                            them, and the risks involved. Without that shared

                Recommended Practices for Office of Inspectors General Use of New Media


                                                Page 24

education, Working Group members would not be in a position to advise their
agency leadership on strategy or identify several recommended practices in this
report.

The Working Group believes that OIGs involved with new media need to undergo
a similarly rigorous assessment. Taking into consideration survey comments and
responses, we suggest that OIGs work together, under the auspices of CIGIE, to
share knowledge and experiences. Individual OIG new media needs may differ,
but OIGs confront similar business, legal, and security issues. By sharing
experiences, OIGs can avoid having to start individually from scratch and, at the
same time, collectively ensure greater efficiency in meeting their common
oversight mission.

Finally, new media is dynamic. OIGs need to be aware of ongoing changes, not
only to ensure that their own new media use will be current but also to oversee
their agencies effectively.

Recommended Practice
We recommend that OIGs using or planning to use new media consider the
following practice:

Recommendation #6: OIGs should offer and encourage training to all personnel
involved in new media activities, whether as part of the OIG’s new media use or
for purposes of oversight of the agency.
For maximum efficiency, CIGIE may
                                              As commercial, web-based social
facilitate such training with the help of the
                                              media technologies and new
Working Group.                                media activities are a relatively
                                                     new function or resource
                                                     available to our agency and the
                                                     OIG, very little internal policy or
                                                     guidance has been developed or
                                                     published regarding these
                                                     activities, including information
                                                     related to records retention,
                                                     authority to post, and so forth.

                                                     —OIG survey respondent




       Recommended Practices for Office of Inspectors General Use of New Media


                                       Page 25

Conclusion, Proposed Areas for Further Study, and
Recommendation to CIGIE
     OIGs recognize that new media is here for the long term, and some have
     advanced quite far in establishing their own capabilities. Others have adopted a
     wait-and-see posture, due at least in part to uncertainty about the benefits and
     risks. Whether an OIG’s focus is on monitoring its agency’s new media use,
     implementing its own new media program, or both, the Working Group hopes that
     this report will serve to inform and inspire.

     Most of the work still lies ahead, however. Survey results revealed disagreement
     among OIGs regarding critical aspects of new media use, such as the legal
     requirements involving FISMA, record keeping, and privacy issues. There were
     other surprising results in the survey, such as that some OIGs do not involve IT,
     counsel, or public affairs in their new media efforts. In addition, this report is
     being released at a time when many OIGs are in the midst of planning and
     developing new capabilities. The survey results showed that in the near future, 13
     OIGs identified as non-media users expect to begin implementing new media.
     Thirty-one OIGs may soon launch Facebook or Twitter accounts, and several
     OIGs will finish reviewing their agencies’ new media activities. Finally, OIGs
     responding to the survey expressed the desire to see the OIG community work
     together on new media to share information, learn from each other’s experiences,
     and improve knowledge management. As one respondent said,

            The IG community has accumulated a large amount of institutional
            knowledge over the years. As in most similar groups, this knowledge is
            not always well organized or managed. We have over 60 different silos,
            with relatively little sharing among IGs. Further, even inside the silos,
            knowledge management is not what it could be.

     Given these concerns, the Working Group proposes that CIGIE establish a
     permanent group to function as an information-sharing and training resource for
     CIGIE and individual OIGs.

     Recommendation to CIGIE: Amid a rapidly changing and demanding
     environment, the Working Group suggests that CIGIE establish a permanent
     standing working group focused on emerging technologies and their impact on the
     OIG community. Such a working group would leverage knowledge and
     experience, and help ease individual resource constraints. The working group
     would:—

        Develop a CIGIE training course for OIG personnel on new media issues.
        Such training should be offered to OIG leadership, management, auditors,
        investigators, inspectors, evaluators, counsel, ethics officials, procurement
        officials, public affairs, and IT staff.

            Recommended Practices for Office of Inspectors General Use of New Media


                                            Page 26

   Organize a new media conference for the OIG community consisting of
   panels covering the myriad issues reviewed in this report, and participate in
   and contribute to the annual Government Web and New Media Conference.

   Continue to research and discuss emerging technologies, in particular how the
   government is leveraging them and how such use may affect the OIG
   community.

   Issue educational guides on critical issues in new media, including the
   following:
       o Information security
       o Legal issues
       o Privacy issues

Summary: Recommended Practices to OIGs
We recommend that OIGs using or planning to use new media consider the
following practices:

Recommendation #1: Before implementing new media, OIGs should consider
how it can serve their particular mission. Factors such as office size, resources, and
the programs and operations the OIG oversees will play a role in determining
which tools an OIG may want to explore. OIGs interested in implementing new
media should consider what other offices have found successful (see appendix B).

Recommendation #2: OIGs should develop effective metrics for new media to
help assess the balance of costs, risks, and benefits.

Recommendation #3: OIGs should be aware of a multitude of legal and
information security issues when employing new media. Before using any new
media tool, they should seek input from counsel and IT experts, both of whom
should continue to be involved throughout implementation. OIGs should consider
how new media is being used by both external audiences and employees, since
substantial information security investments and policy creation may be necessary
to mitigate risks.

Recommendation #4: OIGs should thoroughly assess the potential benefits,
costs, and risks in determining whether to use certain new media tools.

Recommendation #5: OIGs interested in using new media should consider
involving multiple offices in the effort. The Working Group does not believe that
a formal council is necessary, but it does suggest that agencies involve experts
from the following critical areas:

   IT systems/IT security
   Counsel
       Recommended Practices for Office of Inspectors General Use of New Media


                                       Page 27

   Contracting and procurement
   Ethics
   Privacy
   Public affairs
   Congressional affairs
   Program offices
   Management

Recommendation #6: OIGs should offer and encourage training to all personnel
involved in new media activities, whether as part of the OIG’s new media use or
for purposes of oversight of the agency. For maximum efficiency, CIGIE may
facilitate such training with the help of the Working Group.




      Recommended Practices for Office of Inspectors General Use of New Media


                                      Page 28

Appendix A
Purpose, Scope, and Methodology

                     We undertook this review at the request of CIGIE’s Homeland
                     Security Roundtable. The purpose of this review was to sensitize
                     OIGs to the ways new media can be used to further the mission
                     and goals of an OIG. In addition, we sought to address why an
                     OIG needs to be aware of new media developments, particularly
                     how new media may affect an OIG’s oversight responsibilities.

                     This report makes six recommendations to OIGs and one
                     recommendation to CIGIE. The report is not, however, a
                     comprehensive analysis of all the legal, privacy, policy, and
                     security-related issues associated with the use of new media; it is a
                     baseline assessment. In addition, the new media tools and
                     technologies identified in this report are not an endorsement of any
                     commercial products, services, or entities.

                     The Working Group was staffed with public affairs specialists,
                     attorneys, IT professionals, and other subject matter experts and
                     included representatives of presidentially appointed and designated
                     federal entity Inspectors General. We met regularly from
                     December 2010 until the date of this publication. At the outset, we
                     sent a questionnaire to OIGs represented at the Working Group.
                     The Working Group then formulated and administered a survey to
                     the 79 CIGIE members to seek input on their experiences with and
                     views on new media. This report is based on a review of survey
                     responses from 39 OIGs, the subject matter expertise of new media
                     specialists, discussions with industry professionals, legal research,
                     and a review of applicable documents.




            Recommended Practices for Office of Inspectors General Use of New Media

                                           Page 29

Appendix B
New Media Tools That Some OIGs Use

The list of OIGs that use the tools in this appendix reflects OIGs that responded to the survey and
agreed to be contacted; it may not be exhaustive.

       Blogs
       An easy-to-update website or webpage where bloggers write entries in a diary-like
       format. Some also allow readers to engage in conversations with the blogger and other
       readers.

               Department of Commerce: To promote internal communications in the OIG.
               Written and video blogs are created on the OIG intranet with posts written by the
               senior staff and the IG.

       Facebook
       A social networking website that connects people and allows OIG users to find people
       they know among other members, look for members with similar interests or affiliations,
       and establish networks of contacts.

               Department of Education (ED): To reach a large audience with information on
               the OIG’s mission and efforts, attract potential new staff, and encourage those
               involved in education to aid in identifying waste, fraud, and abuse. Information
               uploaded onto Facebook is automatically updated to Twitter, and the OIG
               responds to comments posted by the public. All OIG posts direct traffic to the
               OIG’s website for new reports, job vacancies, and so on.
               NASA: To update Congress, NASA, the GAO, the media, the public, and the IG
               community about the release of OIG reports and other items of interest, including
               new projects, letters to Congress, NASA’s management challenges, press
               releases, and Semi-Annual Reports. Facebook provides a timely and concise
               vehicle for distributing information about the OIG mission, products, activities,
               and significant accomplishments, and allows users easy and direct access to a
               wide variety of OIG information, while providing an avenue for public comments.
       LinkedIn
       A business-oriented networking site to establish connections, announce or search for
       jobs, create personal profiles, and expand professional contacts.

               Treasury Inspector General for Tax Administration (TIGTA): To facilitate
               recruiting and increase awareness of the OIG.
               U.S. Capitol Police: To increase awareness of the OIG.

       OMB Max
       A federal government cloud that allows government employees and contractors to share
       information and collaborate in an easy, secure, and comprehensive interface. Users can
       post documents, restrict access to designated groups or users, solicit comments, edit
       materials, publish briefing books and other data, contribute to a ―wiki,‖ and participate in
       meetings from a remote location.

                  Recommended Practices for Office of Inspectors General Use of New Media


                                                  Page 30

Appendix B
New Media Tools That Some OIGs Use

             Farm Credit Administration (FCA): To complete the OIG section of the
             FISMA report.
             Department of Health and Human Services (HHS): To share information.
             TIGTA: To facilitate information sharing.
             U.S. Railroad Retirement Board (RRB): To obtain and share information.
             OMB Max has become OMB’s primary means of communicating with agencies.
             Peace Corps: To facilitate FISMA reporting.

             Office of Personnel Management (OPM): To provide FISMA audit

             documentation and information on OPM’s claims data warehouse project.
             U.S. Department of Veterans Affairs (VA): To obtain SF 133 and SF 132
             reports and ad hoc OMB guidance.

      RSS Feed
      News feeds that allow the OIG to alert users to new content or updates on its website.
      The alerts, which are delivered directly to the users, usually include article summaries to
      help the users decide whether to go to the website for more information.

             Corporation for National and Community Service (CNCS): To promote new
             reports on the OIG’s website.
             Department of Transportation (DOT): To promote newly released reports and
             drive traffic to the OIG website.
             HHS: To disseminate information to stakeholders/general public about the OIG
             and its work.
             U.S. Agency for International Development (USAID): To announce reports
             and press releases in a way that makes them easily accessible to the public,
             congressional staff, and other stakeholders at low cost.
             RRB: To promote newly released reports.

             VA: To allow visitors to the OIG’s external website to receive subscriptions to 

             specific categories of published content, such as reports by type, monthly
             highlights, press releases, or congressional testimony.
             U.S. Capitol Police: To increase awareness of the OIG.

             State Department: To reach audiences and drive traffic to the OIG Website. 

             The department manages the RSS feed application.
             Federal Trade Commission: To increase awareness of the OIG and announce
             publicly available audit reports.
             Department of Commerce: To increase awareness of the OIG. The RSS feed is
             on the OIG’s website and has received positive feedback from stakeholders.

      SharePoint
      Widely used software that enables internal web portals for document sharing and search,
      team collaboration, blogs, wikis, and distributing news to those granted access.

             TIGTA: To provide employees with historical information, training, policy and
             guidance, and links to useful tools. The software also helps the OIG manage and
             coordinate special program initiatives; maintain case summaries; and remotely
                 Recommended Practices for Office of Inspectors General Use of New Media


                                                 Page 31

Appendix B
New Media Tools That Some OIGs Use

             manage, share, collaborate, and communicate information among field divisions
             and headquarters.
             DOT: To share internal information among employees and create external
             awareness of the results of OIG audits and investigations.
             Department of Labor (DOL): To enhance communication and collaboration
             among employees.
             United States International Trade Commission (USITC): To promote internal
             communications among employees and improve collaboration and knowledge
             management within the OIG.
             HHS: To assist teams across the OIG in producing publications and reports.

             National Science Foundation (NSF): To provide an internal site for sharing

             documents, policies, and links to useful websites. Also used for reserving
             conference rooms and announcing meetings and events.
             VA: To provide a collaborative tool for end users, store documents for
             collaboration, and provide a location for policies and procedures. SharePoint has
             been the OIG’s intranet backbone since 2007, and the office recently formed a
             SharePoint users’ group to explore additional uses.
             U.S. Department of Agriculture: To reach existing employees and facilitate
             dialogue among staff.
             U.S. Capitol Police: To share information internally.

             Small Business Administration (SBA): To share and collaborate on documents, 

             reports, and policies.
             State Department: To promote internal communication among employees. OIG
             manages its own SharePoint site.

      Survey tools (e.g., SurveyMonkey)
      Online survey tools that enable users to create their own web-based surveys. May be used
      internally and externally.

             Peace Corps: To solicit stakeholder feedback on the OIG’s evaluation reports
             once they are released.
             DOL: To gather data. 

             TIGTA: To obtain information for use in audits.

             VA: To conduct customer satisfaction surveys after the issuance of each audit

             and inspection, and to conduct internal staff surveys.
             U.S. Capitol Police: To collect information.

             SBA: To seek employee ideas and feedback on internal communications, 

             strategy, policy, and other topics. SurveyMonkey allows anonymous responses,
             when needed.
             OPM: To receive feedback on internal investigations, meetings, and so on.
             Tennessee Valley Authority (TVA): To conduct internal surveys.
             Environmental Protection Agency: To conduct internal surveys.




                Recommended Practices for Office of Inspectors General Use of New Media


                                                Page 32

Appendix B
New Media Tools That Some OIGs Use

      Twitter
      A service that enables users to write up to 140-character blog posts and follow others
      who ―tweet.‖ The messages, which can be read online or via a cell phone or other mobile
      device, are used for dispensing news and making announcements, obtaining feedback on
      new ideas, establishing a network of people, and obtaining information that may be
      useful for audits and investigations.

             CNCS: To get news out instantly to a wide audience when releasing a new report
             on the OIG’s website, closing out a case, or making other official announcements.
             Most followers are CNCS stakeholders, precisely the group the OIG is trying to
             reach. Twitter has increased traffic to its website and replaced the old electronic
             mailing list.
             DOT: To distribute reports by a method that is simple and uses minimal
             resources.
             HHS: To reach audiences in the health care, compliance, and provider
             communities and amplify the impact of the OIG’s work. One journalist tweeted a
             link to the OIG’s Twitter site to his 1,000 followers, suggesting that they follow
             the HHS OIG site.
             ED: To reach new audiences with information on the OIG’s mission and efforts,
             attract potential new staff, and encourage those involved in education to aid in
             identifying waste, fraud, and abuse. Twitter is simple to use and provides a good
             way to distribute reports. Information uploaded onto Facebook is automatically
             updated to Twitter, and the OIG responds to comments posted by the public. All
             OIG posts direct traffic to the OIG’s website for new reports, job vacancies, and
             so on.
             NASA: To provide Congress, NASA, the GAO, the media, the public, and the IG
             community with timely updates on OIG products without searching the Web,
             Twitter supplies NASA OIG followers with updates on a variety of issues in a
             concise and easily accessible format. NASA OIG tweets new projects, letters,
             and reports to Congress, NASA’s management challenges, and press releases.
             OPM: To obtain information on persons of interest. 

             State Department: To reach audiences and drive traffic to the OIG website.

             Since OIG created a Twitter account, visits to the OIG website and the accessing
             of posted reports have increased. Twitter also provides information for use in
             audits, investigations, inspections, and evaluations. OIG manages its own Twitter
             account while adhering to department guidelines.
             National Labor Relations Board (NLRB): To promote newly released reports
             and communicate about the OIG’s work.

      WebEx
      Applications that provide on-demand collaboration, online meeting, web conferencing,
      and video conferencing capabilities.

             TIGTA: To facilitate collaborative meetings, remote participation by teleworkers
             in meetings, and training, with substantial savings in staff time and travel costs.

                Recommended Practices for Office of Inspectors General Use of New Media


                                                Page 33

Appendix B
New Media Tools That Some OIGs Use

             OPM: To enable remote collaboration, presentations, training, meetings, and
             desktop sharing.

      Wiki
      A collaborative workspace on the Web that allows users to contribute or edit content and
      develop documents or web pages. Access to wikis can be public, where anyone can see
      the content, or limited to a defined community within or across organizations. The
      Council of Counsels to the Inspectors General maintains a wiki on OMB Max.

             USAID: To improve knowledge management inside the designated community.
             U.S. Capitol Police: To increase awareness of the OIG. 

             State Department: To conduct general and specialized searches of the

             department’s and individual bureaus’ internal websites using the wiki-based site
             Diplopedia. The department manages this wiki; OIG provides input only to its
             own Diplopedia entries.
             TVA: To enhance communication among OIG employees, the OIG created an
             internal Wiki.

      YouTube
         A video-sharing Web site that allows users to upload and share user-generated video
         content, including movie clips, television clips, and music videos, as well as amateur
         content.
            HHS: To educate and inform stakeholders and the public about the OIG mission.




                Recommended Practices for Office of Inspectors General Use of New Media


                                                Page 34

Appendix C
Information Security Primer

New media, including social media, often appears to confound the traditional security model for
federal agencies. Traditionally, agencies control all aspects of an information system or
contracted information services. Since many new media applications are free, they can be
accessed outside of the authority of an agency’s Chief Information Officer (CIO). Among other
things, CIOs are responsible for providing for the development and maintenance of minimum
controls required to protect federal information and information systems used by or on behalf of
agencies. More attention has been given to the protection of information systems, as most
federal data reside on internal agency networks, and these systems are tangible, traceable assets.

In contrast to the practice with traditional internal agency networks, some federal data will no
longer be maintained on internal systems as agencies increasingly utilize new media tools.
Therefore, the data may not receive the protections or assurance of certified and accredited
government networks. As federal data is stored, processed, and transmitted through unknown
and often insecure environments, agencies may expose themselves to a host of new security and
privacy concerns that will need to be addressed. Internal and external demand for access to new
media websites, ―apps,‖ and other digital services also puts pressure on agencies to permit access
through secure government networks. In addition, the popularity of new media sites makes them
attractive targets for malicious activities and actors. Many organizations and businesses block
new media sites for a variety of reasons, including security, privacy, and network performance
issues. Including the CIO, information security officer, privacy official, counsel, public affairs,
and other stakeholders in the planning can greatly decrease the legal, reputational, and financial
risks of using social media and new media services. When an agency determines that access to
new media through secure government networks is appropriate, additional safeguards and risk
acceptance or mitigation should be considered. Such safeguards include, but are not limited to,
applying FISMA and engaging with new media providers.

Federal Information Security Management Act
Whether FISMA applies to new media has emerged as a debatable and sometimes contentious
issue because of ever-changing nomenclature and dearth of official federal guidance. New
media is often defined by the name of a specific tool, company, service, or application. At this
time, however, there is little official guidance that identifies, defines, and unites these tools. As a
result, efforts to address them are often as fractured as the terms used within the organization.
Agencies should carefully consider the impact FISMA may have on new media adoption.

Engagement With New Media Providers
When utilizing new media and social media services, agencies must consider additional risk
management. Service providers may or may not be willing to enter into a contract with specific
terms of service addressing security, privacy, and other concerns. If the vendor is not willing to
negotiate and the terms as provided could result in unacceptable risks or additional costs, the
agency should reconsider its options. Agencies should carefully review and negotiate contracts
with new media providers to ensure that appropriate security, privacy, and other matters are
clearly defined and meet federal government requirements.


                   Recommended Practices for Office of Inspectors General Use of New Media


                                                   Page 35

Appendix D
Legal Resources


The following table lists various laws, regulations, guidance, and other legal resources that an
OIG may find useful in creating and maintaining its new media program. However, it is not
meant to be a comprehensive or exhaustive list, and each OIG should consider its own needs and
requirements in determining which laws, regulations, and guidance are applicable to its specific
situation.




                  Recommended Practices for Office of Inspectors General Use of New Media


                                                  Page 36

Appendix D
Legal Resources



  Area of         Applicable Statutes,                       Description
  Interest        Regulations, and Guidance
  Ethics          5 C.F.R. § 2635.702                        No endorsements of any product,
                                                             service, or enterprise
                  5 C.F.R. § 2635.703                        Employees may not use nonpublic
                                                             information to further private interest
                                                             or that of another
                  5 C.F.R. § 2635.703(b)                     Employees may not disclose nonpublic
                                                             information
                  5 C.F.R. § 2635.704                        Duty to protect and not use government
                                                             property (de minimus exception)
                  5 C.F.R. § 2635.705                        Duty to use official time to perform
                                                             official duties
                  5 C.F.R. § 2635.801 et seq;                Restrictions on outside employment
                  18 U.S.C. § 203(a); 18 U.S.C. §            and nongovernmental activities
                  209; 5 C.F.R. § 2636.305, et seq.
                  41 U.S.C. § 423                            Restrictions on disclosing and
                                                             obtaining contractor bid or proposal
                                                             information or source selection
                                                             information
  Procurement     Clinger-Cohen Act of 1996,                 Establishes a comprehensive approach
  & Terms of      40 U.S.C. § 1401(3)                        for executive agencies to improve the
  Service                                                    acquisition and management of their
                                                             information resources
                  48 C.F.R. § 6.101                          Requires full and open competition
                  48 C.F.R. § 4.101                          Allows only contracting officers to
                                                             sign contracts on behalf of the United
                                                             States
  Information Privacy Act of 1974,                           Governs the collection, maintenance,
  Collection, 5 U.S.C. § 552(a), as amended                  use, and dissemination of information
  Management,                                                about individuals that is maintained in
  & Privacy                                                  systems of records by federal agencies
              Procurement Integrity Act,                     Prohibits the release of source
              41 U.S.C. § 423, implemented at                selection and contractor bid or
              FAR 3.104                                      proposal information
              Freedom of Information Act, 5                  Gives the public the right to request
              U.S.C. § 552(a), as amended                    access to records of the executive
                                                             branch of the government unless the
                                                             information is protected from
                                                             disclosure
                  Executive Order 13526,                     Prescribes a uniform system for
                  Classified National Security               classifying, safeguarding, and
                  Information                                declassifying national security
                                                             information
                  Recommended Practices for Office of Inspectors General Use of New Media


                                                  Page 37

Appendix D
Legal Resources

  Area of         Applicable Statutes,                       Description
  Interest        Regulations, and Guidance
                  E-government Act of 2002,                  Promotes the use of the Internet to
                  44 U.S.C. § 101                            make the federal government more
                                                             transparent
                  18 U.S.C. § 1905                           Prohibits disclosure of proprietary
                                                             information and certain other
                                                             information of a confidential nature
                  Policies for Federal Agency                Requires agencies to manage public
                  Public Websites, OMB                       websites as part of their information
                  Memorandum M-05-04                         resource management program and to
                                                             be in compliance with federal
                                                             information resource management law
                                                             and policy
                  Safeguarding Personally                    Requires that a review be conducted to
                  Identifiable Information, OMB              address all administrative, technical,
                  Memorandum M-06-15                         and physical means used to ensure
                                                             privacy of personally identifiable
                                                             information
                  Protection of Sensitive Agency Provides a security checklist and
                  Information, OMB Memorandum recommends other actions to be taken
                  M-06-16                        to protect sensitive agency information
                  Reporting Incidents Involving              Provides updated guidance on the
                  Personally Identifiable                    reporting of security incidents
                  Information and Incorporating              involving personally identifiable
                  the Cost for Security in Agency            information
                  Information Technology
                  Investments, OMB Memorandum
                  M-06-19

                  Safeguarding Against and                   Requires agencies to develop and
                  Responding to the Breach of                implement a breach notification policy
                  Personally Identifiable                    and provides the framework within
                  Information, OMB Memorandum                which agencies must develop the
                  M-07-16                                    policy while ensuring that proper
                                                             safeguards are in place to protect the
                                                             information
                  Privacy Policies on Federal Web            Directs departments and agencies to
                  Sites, OMB Memorandum                      post clear privacy policies on websites
                  M-99-18                                    and provides guidance for doing so




                  Recommended Practices for Office of Inspectors General Use of New Media


                                                  Page 38

Appendix D
Legal Resources

  Area of         Applicable Statutes,                       Description
  Interest        Regulations, and Guidance
                  Guidance for Agency Use of                 Provides guidance to federal agencies
                  Third-Party Websites and                   on how to protect privacy, consistent
                  Applications, OMB                          with the law, while using third-party
                  Memorandum M-10-23                         Web-based technologies
                  Guidance for Online Use of Web             Provides guidance for using
                  Measurement and Customization              customization technologies (i.e.,
                  Technologies, OMB                          cookies); requires that users be notified
                  Memorandum M-10-22                         and allowed to opt out
                  Government Paperwork                       Requires federal agencies to allow
                  Elimination Act,                           individuals or entities that deal with the
                  Pub. L. No. 105-277                        agencies the option to submit
                                                             information or transact with the agency
                                                             electronically, when practicable, and to
                                                             main records electronically, when
                                                             practicable
                  Paperwork Reduction Act,                   Establishes a process whereby OMB
                  44 U.S.C. § 3501 et. seq.                  reviews and approves plans to collect
                                                             information from the public where
                                                             there are 10 or more participants
                  Social Media, Interactive                  Explains that the Paperwork Reduction
                  Technologies and the Paperwork             Act does not apply to many uses of
                  Reduction Act, OMB Office of               social media and technologies
                  Information and Regulatory
                  Affairs Memorandum, April 7,
                  2010
  Information     Information Quality Act,                   Requires that federal agencies follow
  Quality         Pub. L. No. 105-554, § 515                 guidelines that ensure and maximize
                                                             the quality, objectivity, utility, and
                                                             integrity of information they
                                                             disseminate
                  Guidelines for Ensuring and                OMB guidance on implementing the
                  Maximizing the Quality,                    Information Quality Act
                  Objectivity, Utility, and Integrity
                  of Information Disseminated by
                  Federal Agencies
                  (Republication), 67 Fed. Reg.
                  8452
                  Plain Language Act, Pub. L. No.            Requires the federal government to
                  111-274                                    write all new publications, forms, and
                                                             publicly distributed documents in a
                                                             ―clear, concise, well-organized‖
                                                             manner


                  Recommended Practices for Office of Inspectors General Use of New Media


                                                  Page 39

Appendix D
Legal Resources

  Area of         Applicable Statutes,                       Description
  Interest        Regulations, and Guidance
                  Final Guidance on Implementing             Provides guidance on implementing
                  the Plain Writing Act of 2010,             the plain writing requirements of the
                  OMB Memorandum M-11-15                     Plain Writing Act of 2010
  Information     Federal Information Security               Requires each federal agency to
  Security        Management Act of 2002, 44                 develop, document, and implement an
                  U.S.C. § 3541, et. seq.                    agency-wide program to provide
                                                             information security for the
                                                             information and information systems
                                                             that support the operations and assets
                                                             of the agency
                  New FISMA Privacy Reporting                Provides advance notice about new
                  Requirements for FY 2008, OMB              FISMA reporting requirements, mostly
                  Memorandum M-08-09                         regarding privacy reviews and privacy
                                                             issues
                  Guidelines on Securing Public              Provides guidance on implementing
                  Web Servers, NIST Special                  appropriate security management
                  Publication 800-44                         practices and controls when
                                                             maintaining and operating a secure
                                                             Web server
                  FY 2004 Reporting Instructions             Provides guidance and instructions to
                  for the Federal Information                agencies on how to implement the
                  Security Management Act, OMB               requirements of FISMA and how to
                  Memorandum M-04-25                         report to OMB and Congress on the
                                                             effectiveness of their security programs
  Accessibility   Section 508 Amendment to the               Requires that all website content be
                  Rehabilitation Act of 1973, Pub.           equally accessible to people with
                  L. No. 105-220, § 508                      disabilities—applies to Web
                                                             applications, Web pages, all attached
                                                             files, intranet sites, and public-facing
                                                             Web pages
                  Improving Access to Services for Requires federal agencies to provide
                  Persons with Limited English     meaningful access to those with
                  Proficiency, Executive Order No. limited English proficiency
                  13,166
                  Improving Public Access to and             Identifies procedures to organize and
                  Dissemination of Government                categorize information and make it
                  Information and Using the                  searchable across agencies to improve
                  Federal Enterprise Architecture            public access and dissemination
                  Data Reference Model, OMB
                  Memorandum M-06-02


                  Recommended Practices for Office of Inspectors General Use of New Media


                                                  Page 40

Appendix D
Legal Resources

  Area of         Applicable Statutes,                       Description
  Interest        Regulations, and Guidance
  Records         Federal Records Act, 44 U.S.C.             44 U.S.C. Chapter 21 – National
  Management      Chapters 21, 29, 31 & 33                   Archives and Records Administration
                                                             44 U.S.C. Chapter 29 – Records
                                                             Management by the Archivist of the
                                                             United States and by the Administrator
                                                             of General Services
                                                             44 U.S.C. Chapter 31 – Records
                                                             Management by Federal Agencies
                                                             44 U.S.C. Chapter 33 – Disposal of
                                                             Records
                  Records Management, 36 C.F.R.              Regulations regarding the creation,
                  Chapter XII, Subchapter B                  maintenance and disposition of various
                                                             types of records. Part 1234 applies to
                                                             electronic records management.
                  Management of Federal                      Provides uniform government-wide
                  Information Resources, OMB                 information resources management
                  Circular A-130                             policies as required by the Paperwork
                                                             Reduction Act of 1980
                  Guidance on Managing Records               Addresses records management
                  in Cloud Computing                         considerations in cloud computing
                  Environments, NARA Bulletin                environments and is the formal
                  2010-05                                    articulation of NARA’s view of
                                                             agencies’ records management
                                                             responsibilities.
                  NARA Guidance on Managing                  Guidance to assist agency officials in
                  Web Records, January 2005                  mitigating the risks an agency faces by
                                                             using the Web to carry out agency
                                                             business
                  Implications of Recent Web                 Explores some Web applications and
                  Technologies for NARA Web                  their impact on records management
                  Guidance
                  NARA Guidance on Managing       Provides guidance on managing
                  Records in Web 2.0/Social Media records produced when federal
                  Platforms, NARA Bull. 2011-02 agencies use Web 2.0/social media
                                                  platforms for federal business
  Intellectual    Lanham Act, 15 U.S.C. §§ 1051, Provides for a national system of
  Property        et seq.                         trademark registration and protects the
                                                  owner of a federally registered mark
                                                  against use of similar marks
                  Anticybersquatting Consumer     Establishes a cause of action for
                  Protection Act, 15 U.S.C. §     registering, trafficking in, or using a
                  1125(d)                         domain name confusingly similar to, or
                                                  dilutive of, a trademark or personal
                                                  name
                  Recommended Practices for Office of Inspectors General Use of New Media


                                                  Page 41

Appendix D
Legal Resources

  Area of         Applicable Statutes,                       Description
  Interest        Regulations, and Guidance
                  Uniform Domain Name Dispute                A process established by the Internet
                  Resolution Policy                          Corporation for Assigned Names and
                                                             Numbers to resolve disputes regarding
                                                             domain names
                  Digital Millennium Copyright               Provides heightened penalties for
                  Act, Pub. L. No. 105-304                   copyright infringement on the Internet
                  Use of Department Seals,                   Prohibits the wrongful use of seals of
                  18 U.S.C. §§ 508, 1017                     departments and agencies
                  Use of US Government Seals,                Prohibits the wrongful use of seals of
                  18 U.S.C. § 713                            the United States, the President, the
                                                             Vice President, and Congress
  Politics        Lobbying with Appropriated                 Prohibits the use of appropriated funds
                  Moneys, 18 U.S.C. § 1913                   to lobby member of Congress
                  Hatch Act, 5 §§ U.S.C. 7321-               Governs the participation by certain
                  7326                                       federal executive branch employees in
                                                             partisan political management or
                                                             partisan political campaigns
                  Political Activities of Federal            Regulations implementing the Hatch
                  Employees, 5 C.F.R. § 734                  Act
  Advisory        Federal Advisory Committee Act,            Governs the behavior of federal
  Committees      5 U.S.C. Appendix 2                        advisory committees by restricting
                                                             their formation, limiting their powers,
                                                             and limiting the length of time
                                                             committees may operate. Also
                                                             declares that all administrative
                                                             procedures and hearings are to be
                                                             public knowledge.
  First           5 U.S.C. § 552a(e)(7)                      Prohibits maintaining records on how
  Amendment                                                  individuals exercise First Amendment
                                                             rights




                  Recommended Practices for Office of Inspectors General Use of New Media


                                                  Page 42

Appendix E
CIGIE New Media Working Group Survey

Section 1: Introduction
The CIGIE New Media Working Group seeks your participation and input about the
current state of new media use in the Inspector General community, including
information about best practices and possible areas of concern. The results of this survey
will assist the CIGIE New Media Working Group in developing non-binding guidance on
the potential uses of new media in the Inspector General community.

As you respond to the survey questions, please keep in mind that ―new media‖ is much
more than social media tools such as Twitter, Facebook, and LinkedIn, with which you
may be more familiar. Rather, new media encompasses all forms of electronic and
interactive media, which can dramatically enhance internal, intra-governmental and
external interactions and knowledge management. To cite some examples, OMB Max
facilitates information sharing, collaboration, data collection, analytics, and publishing
activities in a FISMA-compliant, government cloud. Other tools facilitate surveys,
project management, and mind mapping. For your information, a glossary of terms
describing the new media tools referenced in this survey is enclosed as an attachment to
the accompanying email.

Section 2: Demographic Information
1.	 Please identify which Office of Inspector General (OIG) you represent.

2.	 Whom may we contact if we have questions regarding your answers? Please
    provide name, phone number and email address.

3.	 Does your OIG currently use new media?
       Yes

       No, but we are considering using new media.

   Comments:

Section 3: General Questions About The OIG Community And New
Media
1.	 How would your OIG like to see new media serve the IG mission? Please check
    all responses that apply.

       Enhancing collaboration and knowledge management within the OIG community.
       Improving quality of hotline complaints.
       Obtaining comments and feedback that may increase the OIG’s ability to provide
       effective oversight.
       Increasing the likelihood of obtaining agency or legislative action on OIG
       recommendations.
       Improving collaboration and knowledge management within your OIG.


               Recommended Practices for Office of Inspectors General Use of New Media

                                              Page 43

Appendix E
CIGIE New Media Working Group Survey

       Increasing awareness of OIG.

       Helping auditors, investigators and evaluators perform their respective jobs.

       Recruiting

       Enhancing communications among OIG employees.

       Other: (Please specify)


2.	 What prevents your OIG from using new media?

       Lack of time.
       It’s an issue of investment vs. resources.
       Lack of knowledge.

       Increased expense.

       Other. (Please specify)


3.	 Has your OIG reviewed the new media activities of the agency you oversee? If
    yes, please provide a link to the report.

       We are planning one.

       Yes, as part of a FISMA report on compliance with OMB A-130.

       Ongoing.

       No.

Please provide a link to any relevant reports along with any other comments you may

have.


Section 4: Considering The Use of New Media
1.	 What type of new media is your OIG considering using for internal and/or
    external use? Please check all that apply.

       Audio or video podcasts.

       LinkedIn

       Knowledge management tools.

       SharePoint.

       Survey tools such as SurveyMonkey.

       Blogs.

       RSS Feed.

       Twitter.

       YouTube.

       Wikipedia.

       IdeaScale.

       Facebook.

       OMB Max.

       Other: (Please specify and add any comments you may have.)


              Recommended Practices for Office of Inspectors General Use of New Media


                                              Page 44

Appendix E
CIGIE New Media Working Group Survey

2.	 If your OIG is considering the use of new media, which offices are involved in
    the planning? Please check all that apply.

       Program offices (Audit, Investigations, Inspections/Evaluations, etc.).

       Human Resources.

       Information Technology.

       Communications/Public Affairs/External Affairs.

       Counsel.

       Other: (Please specify)


Section 5: OIGs That Currently Use New Media
Please fill out this section if your OIG currently uses new media.

1.	 How is your OIG using new media (either internally or externally)? Please
    check all that apply.

       To promote newly released reports.

       For knowledge management purposes

       To facilitate dialogue with stakeholders

       To facilitate dialogue with the general public

       To comply with the Open Government initiative to increase transparency and 

       collaboration with the general public.

       To reach potential employees

       To drive traffic to the OIG website

       To reach existing employees.

       To promote internal communication among employees.

       To obtain information for use in audits, investigations, inspections or evaluations.

       Other (please specify or provide any comments you may have).


2.	 Which new media products does your OIG use? Please check all that apply.

       OMB Max.

       Knowledge management tools

       Blogs

       IdeaScale

       Wikipedia

       LinkedIn

       Facebook

       Twitter

       YouTube.

       Survey tools such as SurveyMonkey.

       Sharepoint.

       Audio or video podcasts.


              Recommended Practices for Office of Inspectors General Use of New Media


                                              Page 45

Appendix E
CIGIE New Media Working Group Survey

      RSS Feed.

      Other (please specify or provide any comments you may have.


3.	 Please describe your OIG’s overall experiences with new media.

4.	 What resources has your OIG expended so far to set up and manage your new
    media activities?

5.	 Which offices in your OIG have responsibility for developing and management
    content for your OIG’s new media sites? For each office, please indicate the
    number of hours devoted to new media activity each week.

   Counsel
      None

      Less than 5 hours

      Less than 10 hours

      Less than 15 hours

      Less than 20 hours

      Less than 30 hours

      Full-time


   Information Technology

       None

       Less than 5 hours

       Less than 10 hours

       Less than 15 hours

       Less than 20 hours

       Less than 30 hours

       Full-time


   Program Offices: (Audit, Investigations, Investigations, etc.)

      None

      Less than 5 hours

      Less than 10 hours

      Less than 15 hours

      Less than 20 hours

      Less than 30 hours

      Full-time


   Public Affairs/External Relations/Communications

      None

      Less than 5 hours

      Less than 10 hours

      Less than 15 hours


              Recommended Practices for Office of Inspectors General Use of New Media


                                              Page 46

Appendix E
CIGIE New Media Working Group Survey

      Less than 20 hours

      Less than 30 hours

      Full-time


   Shared responsibility

      None

      Less than 5 hours

      Less than 10 hours

      Less than 15 hours

      Less than 20 hours

      Less than 30 hours

      Full-time


   Other (please specify and add any comments you may have.)

6.	 Are your new media activities FISMA-compliant? Please explain why or why
    not.

      Yes
      No
      Please provide additional information regarding your answer.

7.	 Do you maintain records of content posted on external news sites?

      Yes
      No
   Comments:

8.	 Does your OIG have a policy or practices regarding record keeping of new
    media activities?

      Yes
      No
   Please elaborate on your answer and indicate whether you would be willing to share a
   copy of your policy.

9.	 What is your OIG’s measure of the effectiveness of your new media use? Please
    check all that apply.

      Dollars saved

      More assets recovered

      Number of postings or retweets

      More positive work environment.

             Recommended Practices for Office of Inspectors General Use of New Media


                                             Page 47

Appendix E
CIGIE New Media Working Group Survey

       Number of comments

       More effective audits

       Number of users, fans, followers or subscribers

       Increased collaboration.

       More effective investigations.

       Reduced redundant work; greater efficiency.

       Other: (Please specify and provide examples.)


Section 6: OIGs That Use Twitter
Please fill out this section if your OIG uses Twitter.

1. Why does your OIG use Twitter?

       Good way to distribute reports.

       Large number of users.

       Most closely aligned with our current capabilities.

       Least use of resources.

       It provides us with information for use in audits, investigations, inspections and

       evaluations.

       Simplicity of use.

       Other: (Please specify.)


2. Do you screen followers?
      Yes.

      No

   Comments:

3. Who do you follow on Twitter? Please check all that apply.

       The agency we oversee

       Congressional committees

       Journalists.

       Members of Congress.

       We don’t follow anyone
       Stakeholders.

       Other: Please specify


4. Do you retweet references to your OIG?

       Yes

       No


       Comments:
               Recommended Practices for Office of Inspectors General Use of New Media


                                               Page 48

Appendix E
CIGIE New Media Working Group Survey

Section 7: OIGs That Use Facebook

Please fill out this section if your OIG uses Facebook.

1.	 Why does your OIG use Facebook? Please select all that apply.
      It provides us the ability to interact with stakeholders and receive feedback.

      Facebook has a large number of users.

      Facebook is a source of information for the people we wish to reach.

      It provides use with information for use in our audits, investigations, inspections 

      and evaluations.

      Other: Please specify.


2.	 Do you respond to comments?

       Yes

       No

   Please summarize your comments policy here.

3.	 Do you screen friend requests?
       Yes

       No


4.	 Does your OIG allow comments to be posted?
       Yes

       No

   Please describe your policy

Section 8: Additional Questions
1.	 Are there new media tool(s) that you would like to use as part of your job
    responsibilities? If so, please explain.

2.	 Do you have any other comments, questions or observations regarding your
    current or potential use of new media?

       Yes

       No

   Please elaborate.




              Recommended Practices for Office of Inspectors General Use of New Media


                                              Page 49

         The CIGIE New Media Working Group

         The CIGIE New Media Working Group consisted of
         representatives of the following Offices of the Inspectors General:

         Department of Commerce
         Department of Education
         Department of Health and Human Services
         Department of Homeland Security
         Department of Housing and Urban Development
         Department of Veterans Affairs
         Environmental Protection Agency
         International Trade Commission
         National Aeronautics and Space Administration
         National Science Foundation
         Pension Benefit Guaranty Corporation
         Smithsonian Institution
         Social Security Administration
         Treasury Inspector General for Tax Administration
         United States Postal Service




Recommended Practices for Office of Inspectors General Use of New Media

                               Page 50

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
